<html>
<title> - OVERSIGHT OF THE COUNCIL ON ENVIRONMENTAL QUALITY</title>
<body><pre>[Senate Hearing 116-32]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 116-32

                              OVERSIGHT OF
                  THE COUNCIL ON ENVIRONMENTAL QUALITY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-932 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b7b644b687e787f636e677b2568646625">[email&#160;protected]</a>                
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 15, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                                WITNESS

Neumayr, Mary Bridget, Chairman, Council on Environmental Quality     7
    Prepared statement...........................................     9
    Responses to additional questions from:
        Senator Barrasso.........................................    14
        Senator Carper...........................................    17
        Senator Cardin...........................................    26
        Senator Markey...........................................    28

                          ADDITIONAL MATERIAL

The Myth of the Carbon Investment `Bubble,' by Nancy Meyer and 
  Lysle Brinker. www.wsj.com, January 11, 2015...................    48

 
           OVERSIGHT OF THE COUNCIL ON ENVIRONMENTAL QUALITY

                              ----------                              


                        WEDNESDAY, MAY 15, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Sullivan, Ernst, Whitehouse, and Markey.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning.
    Today we are going to conduct oversight on the Council on 
Environmental Quality.
    I welcome our witness, Mary Neumayr, who is Chairman of the 
Council.
    Welcome.
    In January, the Senate confirmed Ms. Neumayr by voice vote. 
She is the first Senate confirmed Chairman since 2014.
    I look forward to hearing about the Council on 
Environmental Quality's priorities under your leadership.
    President Trump's administration has pursued pro-growth and 
pro-job policies that also protect our Nation's air, water, 
wildlife, and communities. I share President Trump's belief 
that we can both grow our economy and protect our environment 
at the same time.
    The Obama administration largely believed that we had to 
pick one or the other. As a result, the American people 
unnecessarily suffered from a series of overreaching 
environmental policies and punishing regulations.
    Now the Trump administration is shifting the Federal 
Government away from policies that increase uncertainty, that 
increase costs, and that increase delays with no corresponding 
environmental benefits.
    For example, in March 2017, President Trump ordered the 
Council on Environmental Quality to rescind the Obama 
administration's greenhouse gas guidance. That guidance was 
unworkable. It also served to delay projects and increase 
uncertainty. Withdrawing the guidance was the right decision.
    Over the last 2 years, the Council has improved 
environmental reviews that delay projects and increase costs. 
Last December, the Council published a report based on 1,161 
environmental impact statements issued between 2010 and 2017. 
The report found that it took an average of 4 and a half years 
to complete an environmental impact statement; 4 and a half 
years for Wyoming's farmers and ranchers to get answers on 
decisions that affect their lands and their waters; 4 and a 
half years before shovels can go in the ground on 
infrastructure projects that the Nation so desperately needs.
    Four and a half years is indefensible.
    To address delays, the Council on Environmental Quality has 
developed and implemented a policy known as One Federal 
Decision. One Federal Decision establishes a coordinated and 
timely environmental review process. Agencies must develop and 
follow a permitting timetable, with the goal of completing 
environmental reviews within 2 years. Agencies will then 
produce a single environmental document.
    This is a commonsense approach that emphasizes interagency 
coordination, accountability, and transparency. The policy will 
help agency leaders and their staffs achieve better 
consistency, communication, and coordination in the Federal 
permitting process.
    The Council on Environmental Quality is also considering 
changes to its regulations implementing the National 
Environmental Policy Act, or NEPA. Last summer, the Council 
issued an advanced notice of proposed rulemaking requesting 
comment on potential updates to its implementing regulations. 
It received over 12,000 comments. I believe the Council should 
consider substantial revisions to the NEPA regulations. These 
regulations are over 40 years old and need to be updated.
    It is difficult to overstate the importance of reforming 
NEPA regulations. For years we have talked about the Act as a 
source of delay and uncertainty. We feel its effects nearly 
everywhere. Satisfying NEPA is almost always a prerequisite to 
Government action.
    For my home State of Wyoming, the law plays an integral 
role in the development of land use and resource management 
plans that affect coal and natural gas production. The Act 
often delays permits to Wyoming's farmers, ranchers, and 
businesses, the permits that they need. They need them to keep 
their lands productive and to maintain their livelihood.
    More broadly, NEPA is at the core of every agency decision 
to construct, to fund, or to approve roads, bridges, pipelines, 
dams, and other critical infrastructure. By improving NEPA, the 
Trump administration will reduce delays and end duplicative 
reviews. It also will stop nuisance litigation, improve the 
usefulness of environmental review, and better incentivize 
interagency coordination.
    I look forward to hearing more about what the Council on 
Environmental Quality is currently doing to both protect the 
environment and support economic growth. We can and we must do 
both.
    I will now turn to Ranking Member Carper for his opening 
remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Ms. Neumayr, great to see you. Welcome. We are delighted 
that you could appear before us for this conversation on the 
Council on Environmental Quality.
    My colleagues recall well the nominating process that 
preceded your nomination, and we are pleased that you are 
sitting here and not someone else.
    Ms. Neumayr, during your confirmation process, you made 
commitments, as you recall, to members of our Committee, 
including me, on a number of critical environmental concerns, 
and we are just grateful for this opportunity to check in on 
those issues and maybe to discuss several others.
    Specifically, you committed that under your leadership, CEQ 
would support Federal planning and preparation for extreme 
weather events. I look forward to hearing an update on that, as 
well as on the status of CEQ greenhouse gas guidance for 
Federal agencies.
    However, since your confirmation, I have been a bit 
disappointed to hear statements from this Administration, more 
than a bit disappointed to hear statements from this 
Administration undermining climate science, and particularly to 
learn that CEQ may be helping to block common sense climate 
actions such as the ratification of the Kigali Amendment to the 
Montreal Protocol, which would bring with it substantial job 
creation in this country and economic growth in this country.
    These developments are very disappointing. The Fourth 
National Climate Assessment was crystal clear: If we do not act 
quickly and boldly, climate change will continue to wreak havoc 
even more on our Nation's infrastructure, on public health, and 
on economic growth.
    At a time when large parts of this country are bone dry and 
prone to wildfires--in my State we raise a lot of chickens, a 
lot of corn, a lot of soybeans. In southern Delaware and on the 
Delmarva Peninsula, a lot of farmers haven't even been able to 
get on their fields yet to plant anything. I drove through 
southern Delaware the other day, and one large field after 
another unplowed, just water and mud. Something is going on 
here, and I think it is becoming increasingly clear.
    As you know, part of CEQ's mission is to coordinate Federal 
actions to address cross-cutting environmental issues like 
climate change and resilience. Our Nation's transportation 
system is far too energy intensive and vulnerable to our new 
climate reality.
    CEQ should be laser focused on coordinating Federal actions 
to reduce greenhouse gases and making sure our Nation's 
infrastructure is built to withstand climate change impacts, 
including through the NEPA process. Instead of fulfilling these 
obligations, this Administration has largely revoked all 
climate resiliency and mitigation actions taken by the previous 
Administration and has focused on NEPA streamlining.
    I have said it before, and I will say it again: We cannot 
streamline our way to more funding. Neither can we streamline 
our way to a healthier climate. In fact, the wrong types of 
environmental streamlining could make our already dire 
situation even worse. As our Committee and this Administration 
focuses on surface transportation reauthorization efforts, it 
is important to dispel the notion that NEPA is the main 
impediment to infrastructure development.
    In fact, the non-partisan General Accountability Office and 
the Congressional Research Service have documented that 96 
percent of projects approved by the Federal Highway 
Administration are categorically excluded from the NEPA 
process. Let me say that again. According to GAO and CRS, 96 
percent of projects approved by the Federal Highway 
Administration are categorically excluded from the NEPA 
process.
    The projects that do trigger NEPA do so because these 
projects have potential environmental impacts to communities 
that may last for decades and possibly for centuries. Study 
after study has shown that it is not NEPA, but rather a lack of 
funding, that is the primary cause of project delays, or stop 
and go funding; inadequate funding in some cases, and frankly, 
just not knowing if the money is going to come.
    Nevertheless, environmental streamlining has been a part of 
every highway bill in the last 20 years, and it should be. It 
should have been. At minimum, there were 10 streamlining and 
flexibility provisions adopted in the 1998 highway bill--10. In 
2005, 10 provisions were adopted. In 2012, an additional 23 
provisions were adopted. And the FAST Act last implemented, I 
believe, 28 provisions were adopted.
    I am not really good at math, but I think that might be--
let's see, 10, 20, 43. I think that is 71. That is 71. So, what 
I would urge that we do as we go through this consideration for 
additional streamlining, let's collect better data to find out 
which of all those dozens of provisions that we have adopted in 
the last 20 years, which are working, which are not, which need 
to be addressed and revisited.
    We should also focus on fixing something that we know is 
delaying projects, and that is causing significant reduction in 
both staffing and NEPA training opportunities. Let's make 
clear, let's make sure the agencies that protect our 
environment have the resources to do that.
    Last year, as you may know, CEQ published an advanced 
notice of proposed rulemaking regarding NEPA regulations. The 
questions posed in this rulemaking touch on every aspect of the 
NEPA process and signal an openness to redefining crucial NEPA 
terms that help make the law effective.
    Ms. Neumayr, during your confirmation process, you 
committed to a public engagement process that would allow for 
significant feedback, commensurate with the scope of this 
rulemaking. I have not yet heard how CEQ plans to make this a 
reality, but we look forward to hearing about that soon.
    Let me close this morning with a couple of quotes for 
former President Richard Nixon. I am the only Democrat I know 
who quotes Richard Nixon.
    The first can be found in his remarks when he signed the 
National Environmental Protection Act (NEPA) into law in 1970. 
On that date, these were his words: ``Once the damage is done, 
it is much harder to turn around.'' Once the damage is done, it 
is much harder to turn around.
    He also would say, a few years later, these words: ``The 
only people who don't make mistakes are people who don't do 
anything.'' That is my favorite.
    Climate change and extreme weather are real, and we need to 
do something about them now; not as Democrats, not as 
Republicans, not as Independents, but as Americans.
    Time is not on our side. More than ever, we need to move 
forward, and we need to do so in a bipartisan way in order to 
ensure that our infrastructure is built for the long haul and 
that we are not throwing good money after bad, and that, while 
we are addressing those concerns, we are creating more jobs and 
economic opportunity in this country. They are not mutually 
exclusive.
    I am hoping this hearing will better inform our efforts so 
that the steps we take will help ensure that our children, our 
grandchildren have a truly bright future here on Planet Earth. 
It is the only planet that most of us will ever know.
    Thank you, Mr. Chairman.
    And welcome, Ms. Neumayr.
    Senator Barrasso. Thank you very much, Senator Carper.
    Before we turn to Mary Neumayr for your testimony, I would 
point out and submit for the record that yesterday it was 
reported that Speaker Nancy Pelosi made the following remarks 
regarding potential infrastructure legislation at an event with 
the Transportation Construction Coalition. This is what the 
Speaker said. She said, ``We don't want lawsuits; we want dirt 
to fly.'' She said, ``Once we decide that the resources are 
there, the choices are made. We don't want to go to court; we 
want dirt to fly.''
    I am going to submit for the record the article to that 
effect that was reported out today in Politico.
    Senator Carper. Did they report what I said? She was my 
warm up act.
    Senator Barrasso. Not yet. That is going to be breaking 
news, apparently, at the top of the hour.
    Senator Carper. Four standing ovations. No, not really. It 
was good to be there with her, and I thought there was a good 
spirit in that room.
    [The referenced information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thanks so much for being here.
    We have today with us Mary Neumayr, the Chairman of the 
Council on Environmental Quality.
    I want to remind the witness your full written testimony 
will be made part of our official hearing record, so please try 
to keep your statement to about 5 minutes so that we will have 
time for questions.
    We look forward to your testimony.

              STATEMENT OF MARY BRIDGET NEUMAYR, 
           CHAIRMAN, COUNCIL ON ENVIRONMENTAL QUALITY

    Ms. Neumayr. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, thank you for the opportunity to be 
here with you again. Last summer I testified before you as the 
President's nominee to lead the Council on Environmental 
Quality, and I am grateful for the opportunity to testify 
before you today as Chairman.
    I am pleased to update the Committee on several 
Administration priorities and directives that CEQ is currently 
implementing with respect to environmental reviews and 
permitting of new infrastructure, increasing the efficiency of 
Federal agency operations, and promoting the health and 
prosperity of our Nation's oceans, Great Lakes, and coastal 
communities.
    The National Environmental Policy Act established CEQ in 
1970, and one of the Council's core responsibilities is to 
oversee implementation of NEPA's environmental review process 
by Federal agencies. As the Committee is aware, reviews under 
NEPA may involve numerous Federal agencies and overlapping 
statutory requirements, and can result in a lengthy, 
inefficient, and costly process. CEQ has compiled data relating 
to the timelines for Federal agencies to complete environmental 
impact statements under NEPA and has found that, across Federal 
Government, the average time for completion of environmental 
impact statements issued between 2010 and 2017 was 4 and a half 
years.
    To promote more timely environmental reviews and the 
development of modern, resilient infrastructure, President 
Trump signed an Executive Order in August 2017 which 
established a One Federal Decision policy for Federal 
environmental reviews of major infrastructure projects. For 
such projects, the Executive Order directs Federal agencies to 
develop a joint schedule and to prepare a single environmental 
impact statement and single record of decision. The Executive 
Order also sets a 2-year goal for completing environmental 
reviews.
    CEQ has convened an interagency working group to implement 
the Executive Order and One Federal Decision policy, and 
pursuant to guidance issued by CEQ and the Office of Management 
and Budget, 11 Federal agencies and the Federal Permitting 
Improvement Steering Council have signed a Memorandum of 
Understanding committing to implement the policy. The initial 
list and schedules for projects Federal agencies will be 
processing under the One Federal Decision policy is now 
publicly available and will be updated on an ongoing basis.
    The President's Executive Order also directs CEQ to 
undertake actions it deems necessary to modernize and enhance 
the environmental review and authorization process, including 
through issuance of guidance and regulations. As many of you 
know, NEPA was enacted nearly 50 years ago, and CEQ's 
implementing regulations were issued in 1978 and have been 
substantively amended only once, in a limited respect, in 1986.
    Last summer, CEQ issued an advanced notice of proposed 
rulemaking requesting comment on potential revisions to update 
its regulations. CEQ received over 12,500 comments and is 
currently considering potential revisions informed by those 
comments.
    CEQ has also sent draft guidance on consideration of 
greenhouse gas emissions when conducting NEPA analyses to the 
Office of Management and Budget for interagency review. 
Following completion of that review, CEQ intends to publish its 
draft guidance for public comment.
    CEQ has also compiled a comprehensive list of Federal 
agencies' categorical exclusions, or CEs. CEs are not 
exemptions from NEPA, but rather, are a form of NEPA review 
that reduces paperwork and allows agencies to focus their 
resources on actions that may significantly affect the 
environment. This list is intended to provide Federal agencies, 
project applicants, and the public with a single database of 
Federal agencies' CEs.
    Another priority of the Administration has been ensuring 
compliance by Federal agencies with statutory requirements 
relating to energy and environmental performance. In May 2018, 
President Trump issued an Executive Order directing Federal 
agencies to meet relevant requirements in a manner that 
increases efficiency, optimizes performance, eliminates 
unnecessary use of resources, and protects the environment. CEQ 
recently issued implementing instructions to agencies and will 
make data on agency performance publicly available.
    Finally, I know that the health and prosperity of our 
Nation's oceans, Great Lakes, and coastal communities is a 
priority for many members of this Committee. In June of last 
year, President Trump issued an Executive Order which 
streamlines Federal agency coordination on ocean related 
matters through the establishment of an interagency Ocean 
Policy Committee cochaired by CEQ and the Office of Science and 
Technology Policy. The Executive Order prioritizes Federal 
agency engagement with State led regional ocean partnerships, 
coordination on research technology and ocean resource 
management, and expanded public access to Federal ocean related 
data.
    Thank you again for the opportunity to testify today. I 
would be happy to answer any questions and look forward to 
working with this Committee to advance environmental 
protection.
    [The prepared statement of Ms. Neumayr follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thanks so much for that very 
thoughtful testimony. We appreciate you being here today.
    Last summer, CEQ issued an advanced notice of proposed 
rulemaking on the potential revisions to its regulations under 
NEPA. These NEPA regulations haven't been updated in decades, 
so I hope you are considering modernizing the NEPA regulations 
to help accelerate infrastructure projects, to improve 
environmental reviews, and to streamline permitting processes.
    Can you please discuss and share with us some of the themes 
and concerns that have emerged from your advanced notice?
    Ms. Neumayr. Thank you very much for the question. Yes, we 
did issue an advanced notice and did receive a large number of 
comments. The comments came from a range of different 
stakeholders, but there were some common themes that were 
raised. There were comments suggesting revisions to improve the 
coordination between Federal agencies so that we could have a 
more timely process, including ensuring that processes were 
conducted in a concurrent fashion.
    There were also comments on clarifications to the NEPA 
process and NEPA documentation that may be required, and to the 
levels of review that may be required under NEPA. In addition, 
there were comments on the use of current technologies that 
were not in existence at the time that NEPA was issued and 
encouragement of use of current technologies to increase public 
participation in the process.
    So we have received a wide range of comments, and we are in 
the process of considering those comments.
    Senator Barrasso. You know, an inefficient permitting 
process can lead to expensive delays, harmful delays for 
important infrastructure projects. How much of a difference is 
it going to make if we can improve the permitting process 
through the reforms that you are contemplating, and what 
changes to the law would help you achieve these goals?
    Ms. Neumayr. Well, as I said, the process can be a very 
lengthy process, and the report that we issued at the end of 
last year reflected that the timeframes can be many years for 
many important projects that are important to communities 
around the country. Delays in the permitting process can delay 
the development of very important and needed infrastructure, 
including projects that will benefit the environment.
    To the extent that we can reduce delays without 
compromising environmental protection, this will be helpful to 
the funding of projects and will ensure that both Federal 
dollars and private sector dollars go further. But delays can 
result in significant costs, so it is important to try to 
address and reduce unnecessary delays.
    Senator Barrasso. I am so glad to see that you and the 
Administration have taken meaningful steps to improve the 
environmental review process and especially glad to see that 
the Administration set this 2-year goal for completing 
environmental reviews with these projects as part of the One 
Federal Decision policy.
    Are Federal agencies on track to meet that 2-year goal?
    Ms. Neumayr. Yes. As I mentioned, we have a Memorandum of 
Understanding in place with the agencies, and agencies have 
been working in a very collaborative way to identify projects 
to be processed under the One Federal Decision policy and to 
develop schedules that do meet the 2-year goal and are 
schedules that include detailed milestones and are developed 
through extensive coordination between all of the relevant 
agencies. To the extent appropriate, we have encouraged 
agencies to work with their State counterparts, as well, to 
ensure a schedule that includes all of the relevant milestones 
and approvals that are involved.
    Senator Barrasso. You know, Wyoming produces about 40 
percent of the Nation's coal, so earlier this year a Federal 
District Court based in Washington, DC, froze coal leasing and 
drill permits on over 300,000 acres of Federal land in Wyoming. 
The court found that the Bureau of Land Management didn't 
adequately consider greenhouse gas emissions under NEPA.
    In its decision, the court offered very little guidance on 
what the agency needs to do in order to analyze greenhouse gas 
emissions to a court's satisfaction. Judicial decisions like 
this create troubling uncertainty for many, and certainly for 
projects in Wyoming and in other States.
    Is clarity in this area of the law needed, and can 
direction from CEQ help?
    Ms. Neumayr. Well, litigation is an issue and we are aware 
of the court's decision in that case. It is a matter in 
litigation. What I would say generally is that ensuring coal 
leasing and other expanded energy production on Federal lands 
consistent with environmental protections is a priority for the 
Administration, and we do believe that it is important to 
assist agencies in completing and carrying out their NEPA 
responsibilities.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Again, thanks so much for joining us today. 
It is good to see you. We appreciate your testimony and your 
responses to our questions.
    Based on a prior response that you provided to my staff 
during the course of your confirmation, I believe you clarified 
that the majority of highway projects fall within categorical 
exclusions and did not constitute a significant burden. 
However, that still understates the fact that 90 percent--96 
percent, actually--of highway projects are categorically 
excluded from NEPA, as I said earlier.
    My question is this: Do you agree that the vast majority of 
projects, as high as 96 percent, NEPA approvals do not delay 
the issuance of permits?
    Ms. Neumayr. Yes, Senator, I do agree. That 96 percent 
figure is an estimate that has been developed by GAO, and it 
does indicate and confirm that many of the projects approved by 
the Federal Highway Administration are categorically excluded. 
These are projects that may include maintenance, landscaping, 
repaving, bicycle lanes, projects of that nature.
    For significant highway expansions or new corridors or 
bypasses, frequently, typically an environmental assessment or 
environmental impact will be required, and that is a process 
that can take multiple years.
    Senator Carper. All right, thank you.
    During your confirmation, we discussed CEQ's role in making 
our infrastructure more resilient for our new climate reality 
and for protecting American communities. You promised to work 
with me and others on this issue. However, since confirmed, 
there has been mass flooding in the Midwest. It has caused 
billions of dollars in economic damage. They are still trying 
to get their lives back together, as you know. They face 
another hurricane season without any action from CEQ. And I 
mentioned on the Delmarva Peninsula the amount of rain that we 
continue to receive has just pretty much delayed the planting 
season again this year as a year ago.
    At the same time, Federal agencies continue to report dire 
predictions on threats of climate change. GAO recently reissued 
its high risk list. You know they do it every 2 years, at the 
beginning of a new Congress, and they reported this 
Administration has walked away from the growing threat of 
climate change, and I think we are going to be poorer for it.
    Specifically, GAO found this Administration's actions, such 
as revoking the last Administration's Federal Flood Risk 
Management Standard, ``potentially increases the Federal 
Government's fiscal exposure to climate change.''
    Again, I want to know what you are doing personally to 
protect us from the threats of climate change. What are you 
doing personally to protect us?
    Ms. Neumayr. Well, CEQ has, as we have been discussing, 
seeking to advance the development of modern and resilient 
infrastructure, including for major infrastructure projects, 
through the implementation of the Executive Order on 
infrastructure and the One Federal Decision policy, and we 
think that that is very important, including for significant 
resiliency projects and the development of more modern and 
resilient infrastructure.
    In addition, CEQ is working pursuant to the Stafford Act, 
which was amended in 2013 to direct the President and his 
agencies to develop a more expedited and unified Federal 
process for environmental reviews and historic preservation 
reviews for disaster recovery projects. CEQ is a member of the 
Steering Committee that is working to improve that process, and 
we have been active in that process, and we expect to continue 
to be very active in that regard.
    In addition, CEQ participates in a task force that is 
focused on floodplain management and on incorporating best 
practices and better coordination among the agencies following 
disasters so that we can make good funding and construction 
decisions and build more resilient infrastructure.
    Senator Carper. Will the Federal Flood Risk Management 
Standard be replaced, and if so, when?
    Ms. Neumayr. Our focus has been through the task force on 
incorporating best practices and improving the coordination 
between agencies, recognizing that different agencies make 
different investments in different types of infrastructure.
    Senator Carper. All right, thanks.
    My time has expired. I hope we will have a second round.
    Thank you.
    Senator Inhofe [presiding]. Thank you, Senator Carper.
    I have two quick questions I want to get on the record, 
then I am going to leave immediately; I have a timing problem 
here.
    During the WRDA bill in 2016, I authored and successfully 
included a provision, the coal ash. In fact, my State of 
Oklahoma was the first State to actually use this. It has been 
very successful. There is nothing unusual about the States 
taking over what the Federal Government has done in the past; 
we have done it under the Clean Water Air, we have done it 
under the Clean Air Act.
    I would just like to have a brief answer as to, in your 
view, how the States' ability to take these things over has 
been working.
    Ms. Neumayr. Thank you for the question. The Administration 
strongly supports Federal and State cooperation in the context 
of the One Federal Decision policy. We have directed Federal 
agencies to work with States to develop more timely 
environmental review processes, and we have also issued 
guidance to States with respect to surface transportation 
projects where States have assumed NEPA responsibilities, and 
we think that that is an approach that has been a good approach 
and we look forward to supporting States as they move forward.
    Senator Inhofe. I appreciate that very much.
    You already answered my second question, which was going to 
be on the One Federal Decision, so I appreciate that very much 
and yield back my time.
    Thank you.
    Senator Barrasso [presiding]. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Ms. Neumayr, let me begin by thanking you and CEQ for the 
work that you have done to facilitate our bipartisan work in 
the Senate on oceans issues. Chairman Murkowski and I have been 
working on, as you know, the Blue Globe Act, and you and CEQ 
have been very helpful in terms of getting agency connections 
and buy-in and ideas and so forth.
    I think this is an area where we have had a lot of 
bipartisan progress dating from the Port States Measures bill 
and pirate fishing work to our marine plastics work.
    I see Senator Sullivan here. We have had such good time 
doing the Save Our Seas bill that we jumped right back into 
doing Save our Seas 2.0 to try to do even better.
    We just discovered that the deepest dive to the bottom of 
the Marianas Trench discovered a plastic bag floating, whatever 
it is, 30,000 feet down, so it is really time to clean that 
mess up, and we are looking forward to working on that, and 
again, your support has been very helpful. The Blue Globe Act 
with Senator Murkowski is on ocean data and monitoring and 
awareness, so a big thank you there, if I could start with 
that.
    I have provided to my colleagues in the Senate an 
increasing number of warnings that are coming out about what 
climate change portends for economic collapse if it is not 
sensibly addressed. The Bank of England says, and I quote: 
``Climate change will threaten financial resilience and longer 
term prosperity'' and also projects this as a systemic risk to 
the work economy.
    Are you aware of those warnings?
    Ms. Neumayr. [Nodding.]
    Senator Whitehouse. Yes. Thirty-four Central Bank 
presidents, including England, France, Germany, China, and our 
Canadian and Mexican neighbors, estimate losses ranging from $1 
trillion to $4 trillion in the energy sector and up to $20 
trillion when looking at the economy more broadly, and point 
out that the more sophisticated study suggest average global 
incomes may be reduced by up to a quarter by the end of the 
century if this isn't addressed.
    Are you aware of that warning?
    Ms. Neumayr. I am not sure if I am aware of that specific 
warning.
    Senator Whitehouse. OK, we will pass it along.
    An economic study from Cambridge University has forecast 
that the U.S. economy could contract by 5 percent, resulting in 
$3 trillion in losses and millions of lost jobs.
    Are you aware of that warning?
    Ms. Neumayr. [Nodding.]
    Senator Whitehouse. Yes. OK.
    The Fourth National Climate Assessment done by the Trump 
administration says that annual losses in some economic sectors 
are projected to reach hundreds of billions of dollars by the 
end of the century. I assume you are aware of that.
    Ms. Neumayr. Yes.
    Senator Whitehouse. Standard & Poor's has warned that the 
higher we allow the temperature to get from global warming, the 
more damaging climate change will be, and in a non-linear way.
    You are aware of that warning?
    Ms. Neumayr. Generally.
    Senator Whitehouse. Freddie Mac says rising sea levels and 
spreading floodplains appear likely to destroy billions of 
dollars in property and to displace millions of people. The 
economic losses are likely to be greater in total than those 
experienced in the housing crisis and Great Recession.
    Are you aware of that Freddie Mac warning?
    Ms. Neumayr. I am aware that concerns have been raised.
    Senator Whitehouse. The Union of Concerned Scientists warns 
that the consequences of rising seas will strain many coastal 
real estate markets abruptly or gradually, but some eventually 
to the point of collapse.
    Are you familiar with that warning as well?
    Ms. Neumayr. Yes.
    Senator Whitehouse. The insurance industry trade 
publication Risk in Insurance has written, ``Continually rising 
seas will damage coastal residential and commercial property 
values to the point that property owners will flee those 
markets in droves, precipitating a mortgage value collapse that 
could equal or exceed the mortgage crisis that rocked the 
global economy in 2008,'' which many of us lived through in the 
Senate.
    Are you aware of that warning?
    Ms. Neumayr. I am aware, generally aware that concerns have 
been raised.
    Senator Whitehouse. Are you aware of Moody's, the municipal 
bond rating agency, decision to start rating coastal 
municipalities' bonds based on the risk of sea level rise, 
storm damage, and climate change?
    Ms. Neumayr. Yes.
    Senator Whitehouse. The First Street Foundation has been 
going up from Florida, where it did peer reviewed research out 
the Gulf Coast and up the northeast coast. It has been through 
Rhode Island. They have found that along the east coast we have 
already lost more than $15 billion in value since 2005 because 
of sea level rise.
    Are you aware of First Street's work?
    Ms. Neumayr. Not specifically.
    Senator Whitehouse. OK. I will get all this to you.
    And then there are a number of economics publications that 
warn of systemic risk to the world economy based on the threat 
of a carbon asset bubble collapse.
    Are you aware of those publications and that concern?
    Ms. Neumayr. Generally aware of that concern.
    Senator Whitehouse. What is a carbon asset bubble crash, 
just so I know we are talking about the same terms?
    Ms. Neumayr. I had the opportunity to meet with you prior 
to my confirmation, and we talked about that and you raised 
concerns about the potential impacts on real estate.
    Senator Whitehouse. Sorry, I am just trying to get a 
definition of what the carbon asset bubble crash means. What 
does that term mean to you?
    Senator Barrasso. The Senator's time has expired, but if 
you want to finish on this question.
    Senator Whitehouse. That is the last. I am kind of re-
asking it to try to get an answer. Thanks.
    Ms. Neumayr. My recollection is we discussed in your office 
that that is a concern raised in connection with potential 
impacts on real estate located in coastal communities.
    Senator Whitehouse. Well, I will follow up on a second 
round, because that is a different thing.
    Go ahead. Thanks. Sorry to take extra time.
    Senator Barrasso. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Welcome again, Ms. Neumayr. Good to see you.
    I want to begin by just commenting on what Senator 
Whitehouse mentioned on the Save Our Seas Act. As you know, 
when we had our bill signing in the Oval Office, Senator 
Whitehouse and I, the President was very enthusiastic about 
that legislation. I think it is a very important area. 
Bipartisan cooperation not just in the Congress, but with the 
Trump administration and so many countries across the globe. 
Environmental groups, industry, they all want to work on this.
    We are going to be introducing, as Senator Whitehouse 
mentioned, a Save Our Seas Act 2.0. I think we have sent it 
over to the White House to get a look, but certainly would be 
excited about your support. I know the President actually has 
been very supportive of this legislation.
    Can you just mention what you have been doing in this area 
of ocean pollution and particularly the problems we have with 
plastics? It is actually a solvable problem. The estimates are 
five countries, 10 rivers in Asia, constitute over 80 percent 
of all the plastic waste in the world's ocean, much of which 
ends up on the shores of my great State. But if you have any 
comment on that, I would welcome it and your support.
    Ms. Neumayr. Yes. Well, the issue of marine debris has been 
a priority for the Administration, and as you mentioned, the 
President signed legislation. In addition, the agencies have 
been working to address these issues. NOAA and EPA and the 
Department of State and other agencies work closely on these 
issues, I think have recently submitted a support to Congress 
on marine debris related issues.
    CEQ, in particular, has been focused on the marine debris 
issue in the context of the Ocean Policy Committee that was 
established last year, and marine debris has been a topic that 
the Committee is considering.
    Senator Sullivan. Well, we want to continue to work with 
you. As you mentioned, the President not only signed 
legislation; he had a wonderful meeting with Senator Whitehouse 
in the Oval Office that I thought went really great, so we will 
just make sure we are trying to do that again.
    Senator Whitehouse. Thank you, Senator Sullivan.
    Senator Sullivan. You are good to go with that?
    Let me go to another topic where I am hoping that we can 
get bipartisan support, and this is an issue of the time it 
takes to permit infrastructure projects. Unfortunately, NEPA, 
which is a very important piece of legislation, has turned into 
kind of a delay tool for certain groups that don't want to 
build anything. Keystone Pipeline, that took 8 years and 
counting to permit. As you know, there are projects, really 
important projects, whether the Gross Reservoir in Colorado, 14 
years to permit that. The Kensington Gold Mine in Alaska, 
almost 20 years to permit that. On average, it takes 9 to 19 
years to permit a Federal highway, permit and plan a Federal 
highway in America. Nine to 19 years.
    Nobody wants this, except for some extreme radical special 
interest groups that don't want any infrastructure. This 
really, really, really hurts American workers, the men and 
women who build things in our great Nation.
    I am going to be introducing, this week, the Rebuild 
America Now Act. I am hoping to get some of my Democratic 
colleagues to join me in it. I have a number of Republican 
cosponsors. Talked to the President extensively about this, 
including just 2 weeks ago.
    Can you give us an update on the work that you are doing to 
help streamline NEPA? I believe that, like other countries--
Canada, Australia--you can permit infrastructure projects 
within 2 years and still protect the environment. 
Unfortunately, we now have a conventional wisdom that 
permitting processes need to take 8, 9, 10 years. It takes 8 
years, on average, to permit a bridge in America. Who is for 
that?
    So, can you give us your thoughts on that? We want to work 
with you, and I certainly would appreciate the Administration's 
support of my Rebuild America Now Act, which looks very similar 
to the Executive Order the Trump administration put out on 
infrastructure permitting and timelines.
    Ms. Neumayr. We do believe that it is very important that 
it is part of the environmental review process. It is a 
predictable and a timely process.
    Senator Sullivan. Timely meaning 2 years? Can you do it?
    Ms. Neumayr. The Administration has set a goal for major 
infrastructure projects, of completing those reviews in 2 
years.
    Senator Sullivan. By the way, other industrialized 
democracies do that regularly, correct? We are the outlier, 
aren't we, in terms of these 10-year permitting timelines?
    Ms. Neumayr. Our permitting timeframes can be very lengthy. 
So, we have been working with agencies to help ensure that they 
establish a joint schedule and that that schedule is developed 
by the lead Federal agency in consultation with all of the 
relevant Federal agencies, and as appropriate, with State 
agencies as well. So, we have been working to ensure that 
agencies put in place schedules, that they have processes in 
place to elevate issues that might result in delays in the 
schedules, and that they work toward meeting the 2-year goal. 
So, we have been working closely with the agencies on that. In 
addition, we have been working with the agencies on looking at 
their own policies and procedures to help reduce delay.
    Senator Sullivan. Great.
    Mr. Chairman, we want to work with you and the 
Administration, the Ranking Member on this very important issue 
for the sake of America's workers and our economy and 
protecting the environment. I think we can do it all within 2 
years, and we want to work with the Administration, 
importantly, on changing some elements of NEPA that have been 
abused over the years, and I look forward to working with you 
and this Committee on that.
    Senator Barrasso. Thank you, Senator Sullivan.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    I want to thank you for being our witness.
    I want to follow up on what Senator Sullivan was talking 
about in terms of NEPA review and time, typical experience. 
Several of our bills that we have tried to kind of alleviate 
this issue, the lengthy review process, would be having 
dashboards at different permitting agencies that would indicate 
how far along a certain permit is. What is your opinion on 
that, and are you seeing that used successfully in other 
places? If you could talk about that a little bit.
    Ms. Neumayr. We do strongly support more transparency and 
accountability. In fact, under the One Federal Decision policy, 
project schedules are to be posted publicly, and we are 
currently posting them on the dashboard that is hosted by the 
Federal Permitting Council and the Department of Transportation 
so that there can be detailed schedules which are made 
available to the public.
    In addition, we have worked with OMB, which was directed 
under the President's infrastructure Executive Order to develop 
a tracking system to help ensure that agencies do follow the 
One Federal Decision policy, do establish schedules and that 
they do have in place processes to resolve delays and to timely 
address any significant issues that might result in delays, and 
we do strongly believe that posting schedules on the dashboard 
is an important step.
    Senator Capito. You can find that at the Federal 
Permitting--what did you call it?
    Ms. Neumayr. Dashboard for the Federal Permitting Council.
    Senator Capito. OK.
    Ms. Neumayr. The projects are listed in the category titled 
One Federal Decision.
    Senator Capito. When you have a disagreement, the previous 
Administration did a preemptive EPA veto of projects under the 
404(c) of the Clean Water Act, which was very unusual because 
the permit had been in place for several years, and it sort of 
struck as a troubling precedent to me. What role does CEQ do, 
or how do you intervene when you have issues such as this, 
where EPA is overriding Corps of Engineers, when they are 
supposed to be generally working together? How is CEQ 
intervening in this, or are you?
    Ms. Neumayr. Well, CEQ can participate in a number of ways. 
CEQ participates in the interagency review process, so to the 
extent that there is a rulemaking activity, a rulemaking, CEQ 
might participate in that process. In addition, CEQ does have a 
convening role, so where there are issues involving multiple 
agencies, and there is a need for resolution of issues, we can 
play a convening role.
    Senator Capito. What about when that involves the State? We 
also have had issues, not recently, but during the last 
Administration, where the State, in their 401 process, had 
permitted certain things, and the EPA and others had come in 
and overridden decisions that legally lie within the State's 
jurisdiction? Have you seen these in your experience, and what 
are you all doing to address this issue?
    Ms. Neumayr. Well, with respect to those issues, CEQ meets 
with a broad range of stakeholders, including States and 
localities that may come to CEQ to raise specific issues, so we 
have an opportunity to meet with a very broad range of State 
and local stakeholders. In addition, as appropriate, to convene 
meetings of the Federal agencies to seek to coordinate a 
resolve.
    Senator Capito. Do you have instances where the States are 
coming to you, and they are asking you to intervene in these 
instances, or is it mostly technical assistance and those kinds 
of things?
    Ms. Neumayr. Typically, stakeholders will come to talk to 
us about potential regulatory reforms or specific issues that 
they are confronting, so it can be a very wide range of issues.
    Senator Capito. Wide range. All right. Thank you very much.
    Senator Barrasso. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    In a 2017 Executive Order, President Trump took away Obama 
era Council of Environmental Quality guidance on how to include 
climate change in the environmental impact reviews required 
under the National Environmental Policy Act, but a series of 
court decisions have since reaffirmed the need to consider 
climate change and review of environmental permits, which means 
CEQ has to act, and we must have climate guidance.
    Ms. Neumayr, it is my understanding that CEQ submitted its 
new guidance to the Office of Management and Budget for review 
in early February. Is that correct?
    Ms. Neumayr. Yes, that is correct.
    Senator Markey. So it has been over 3 months. When might 
this guidance finally be released from OMB?
    Ms. Neumayr. Well, the guidance is subject to interagency 
review, and OMB leads that process. The process is not yet 
concluded, but we do anticipate that as soon as it is concluded 
we will move forward with issuance of proposed guidance for 
public comment.
    Senator Markey. And when is that? When will it be 
concluded?
    Ms. Neumayr. Well, that will depend on the OMB process, but 
we anticipate moving forward in the near future.
    Senator Markey. In the near future. I obviously highly 
doubt this guidance will be stronger than what was already on 
the books. Climate change is an existential threat to our 
country, and 13 Federal agencies told us of the disastrous 
consequences we could face if we do not act. Of all the issues, 
we cannot afford to weaken our climate guidance. The American 
people recognize the threat of climate change and are demanding 
that they be heard, which leads me to my next question.
    Before CEQ issued its final climate guidance in 2016, it 
issued two drafts for public comment. Will you commit to 
following precedent in issuing the guidance as a draft open to 
public review and comment?
    Ms. Neumayr. Yes, we anticipate issuing the proposed draft, 
and we will request public comment.
    Senator Markey. Great. That is great.
    Ms. Neumayr, the National Environmental Policy Act is the 
magna carta of environmental policy and public engagement in 
this country. The Trump administration is taking steps to 
rewrite it so that NEPA actually stands for No Environmental 
Protections Allowed. In July of last year, when you came before 
this Committee, you refused to commit to holding even one 
public field hearing on the proposal to rewrite the 
implementing regulations for NEPA. You said, ``We will consider 
all of our options with respect to public engagement.'' The 
option is right there. All you need to do is to respect public 
engagement, but that has not been what has happened.
    Will you commit to holding a public hearing on this 
proposal in all nine EPA regions?
    Ms. Neumayr. Well, CEQ has, as I said in my testimony 
earlier, we have received comments in response to a NOPR. We 
are considering those comments and potential revisions. We have 
not sent a proposal to OMB for interagency review. To the 
extent we do send a proposal, we would have to complete the 
interagency review process, and following that, to issue the 
proposed guidance. We do anticipate that we would hold public 
hearings, and we will consider all of our potential options.
    Senator Markey. Commit to public hearings in the regions?
    Ms. Neumayr. We anticipate holding public hearings, but no 
final decisions have been made with respect to that process.
    Senator Markey. Well, again, how you define public 
hearings----
    Ms. Neumayr. And no proposal has been submitted.
    Senator Markey. We need reassurance that stakeholders in 
Massachusetts and other States around the country will be able 
to weigh in if the Administration rolls back this backbone of 
Federal environmental policy. NEPA is central to the pursuit of 
environmental justice. Too often we fail to listen and engage 
with the communities most affected by various projects.
    During your confirmation hearing, you said, ``My commitment 
would be to make addressing environmental concerns in these 
communities a priority.''
    Under your leadership, has the Council on Environmental 
Quality performed outreach in Spanish and other languages 
besides English to communities during the rewrite of the 
regulations to implement NEPA?
    Ms. Neumayr. Public participation and public engagement is 
a priority for us, and we did follow the OIRA interagency 
review process for advanced noticed of proposed rulemaking, and 
we did conduct extensive outreach with respect to that.
    Senator Markey. So, have you reached out to the Spanish 
speaking and other language speaking nationalities in our 
country?
    Ms. Neumayr. We, I believe, followed the OIRA process and 
undertook outreach consistent with OIRA's policies and 
directives.
    Senator Markey. Well, again, we just have to make sure that 
no one is left out when it comes to weighing in, so I would 
just encourage you to make sure that Spanish speaking 
especially--but not exclusively--communities in the country are 
included.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Markey.
    We will now begin a second round of questions.
    We are looking at a time when renewable energy is becoming 
more affordable. I was thinking about this the other day 
because Senator Whitehouse and I previously discussed this 
carbon bubble, where are the prices so high, kind of like the 
tulip bubble of many centuries ago, that energy prices may 
plummet, and that could have an impact. There is an article in 
The Economist this past week about the bidding war for Anadarko 
between Chevron, Occidental Petroleum. I think Warren Buffett 
has come up with another $10 billion, so there is still a 
significant value to petroleum products, and this concept of 
the carbon bubble seems to imply that we are getting bid up too 
high and things could undercut it.
    I do have, for the record, an article written in The Wall 
Street Journal that talks about the myth of the bubble, which 
goes on to say, ``Shaping future energy and environmental 
policies in the energy systems for decades ahead requires 
informed, fact-based decisions.'' It says, ``Anticipating 
bubbles has become an important concern, but it is just as 
important not to base decisions on bubbles that don't exist.''
    In your specific role, I can't imagine that this is 
something that enters into your thinking as you are focusing on 
protecting the environment, making sure the law is followed, 
that you get input from people. That would be different from 
your job as you see it, as we take a look at what potentially 
could happen 15 or 20 years from now.
    Ms. Neumayr. Yes. Our priority is efficient implementation 
of the laws that Congress has passed.
    Senator Barrasso. Let me, at this time, turn to Senator 
Carper if he has additional questions, and then I think Senator 
Whitehouse and if any other Senators come back.
    Senator Whitehouse, we can go to you while Senator Carper 
is in consultation here.
    Senator Whitehouse. Gladly, with Senator Carper's 
permission.
    I wanted to follow up on our conversation. First of all, I 
would be very surprised if the Council on Environmental Quality 
of the White House didn't take into effect, in discharging its 
responsibilities, the prospect of consequences from those 
decisions, and the consequences from those decisions are now 
widely reported to include potentially three very significant 
economic risks; not just losing your farm to a flood, not just 
a localized risk, but broad economic risks, and they fall into 
three categories.
    One is an insurance crisis that either comes from climate 
risk becoming uninsurable because it is so hard to quantify, 
and because it is so potentially damaging, in which case you 
lose the insurance industry, or you end up with a climate 
disaster that is so massive that it sort of breaks the bank of 
the insurance industry. This is not an incredible position to 
take. After Andrew, 16 insurance companies, according to the 
Insurance Institute, went belly up in Florida because they had 
not adequately predicted what was coming.
    So, risk one, broadly stated, is the risk to the insurance 
industry from the rapid changes and increasing risks of climate 
change.
    The second is the coastal property values risk that you 
mentioned, and we talked about in my office. That is what 
Freddie Mac is talking about. And the notion there is that 
coastal property values suffer very sudden collapse when the 
market begins to react to the dangers of rising sea levels, and 
particularly when that prospect begins to back into the tail 
end of a 30-year mortgage. So, if a bank won't issue you a 30-
year mortgage on a property because it is not clear that that 
property won't be literally under water, and not just 
figuratively under water, in 30 years, that is going to really 
blow out the buy side of the coastal property marketplace. And 
if you blow out the buy side, guess what happens to sell 
prices? They go down very rapidly.
    That is the warning that Freddie Mac and others are putting 
out there, and it could be as serious, according to Freddie 
Mac--not an environmental panic group but a very responsible 
housing organization--as bad as the 2008 mortgage crisis we all 
lived through.
    The third is this business of a carbon asset bubble. And I 
wasn't asking you to agree or disagree whether a carbon asset 
bubble is going to pop and whether there is going to be a 
crash; I just wanted to figure out if you were familiar with 
the concept, with what the notion is of what would go wrong 
with a carbon asset bubble.
    So again, without asking you to agree or disagree, are you 
familiar with the carbon asset bubble theory and how it would 
work if the theory were to come to pass?
    Ms. Neumayr. I am familiar generally with the concerns that 
have been raised. We believe that it is important for us to 
improve our preparedness and our planning and to advance a 
modern and resilient infrastructure, and to advance a strong 
economy so that we can withstand future risks, including 
climate related risks. And technology and innovation is 
important, including improving our ability to model and 
forecast and make projections with respect to future events.
    Senator Whitehouse. And Senator Barrasso and I can agree or 
disagree about how real the prospect is of a carbon asset 
bubble, but it is at least real enough that the Bank of 
England, operating as the regulator of all the UK's banks and 
insurance companies, is warning very seriously about it. And it 
is serious enough that $32 trillion worth of investment after 
the last cop organized itself to say we need to know a lot more 
about this because this is a real enough risk that we face an 
information deficit about quantifying it, and we need a lot 
better reporting out of the fossil fuel industry and related 
industries about what their climate financial risk is. And it 
is real enough that there are peer reviewed economic journal 
publications that not only quantify the risk but try to run it 
through and see who it hits the worst.
    And the bad news is that in the event of a carbon asset 
bubble collapse, the U.S. fossil fuel and the Russian fossil 
fuel market perform particularly badly against lower cost 
producers and take a particularly hard hit, and they literally 
are talking about negative GDP growth, significant income 
reductions, and trillions of dollars in damages. So that is 
nothing to mess around with, and I think at least it is an idea 
that merits our attention, and I hope the attention of CEQ as 
it is evaluating what its policy should be in this area.
    Thank you, Chairman.
    Senator Barrasso. Thank you very much, Senator Whitehouse.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Go ahead.
    Senator Whitehouse. May I ask unanimous consent that a 
letter that I wrote on this subject?
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Whitehouse. I am going to give this to Ms. Neumayr 
at the end of the hearing, but I want to put it in the record.
    Senator Barrasso. It is included. Thank you.
    Senator Carper. Mr. Chairman, I also ask unanimous consent 
to submit for the record an announcement I believe made this 
morning by 13 Fortune 500 companies and four environmental 
groups calling on the President and Congress to act as soon as 
possible on climate change.
    Senator Barrasso. Without objection.
    Senator Carper. Thank you.
    [The referenced information was not received at time of 
print.]
    Senator Carper. If I could, I just want to read the first 
couple of sentences of this announcement. I won't mention all 
the companies, but I will mention some of them because I am 
proud of them. DuPont, Dow, Dominion Industry, Dominion Energy, 
Exelon Ford, BASF, Citi, BP, Unilever, DTE, Shell, PG&E; and 
the list goes on with a number of major environmental groups, 
too, including EDF, including The Nature Conservancy and World 
Resource Institute and Center for Climate and Energy Solutions.
    Their announcement starts out, ``It is urgent that the 
President and Congress put in place a long-term Federal policy 
as soon as possible to protect against the worst impacts of 
climate change. Acting sooner rather than later allows us to 
meet the climate challenges for the least possible cost and put 
the necessary investments in place in time to meet our 
emissions targets.'' It goes on to cover five or six major 
points.
    I welcomed the announcement this morning.
    I want to come back, if I can, Ms. Neumayr, to--I don't ask 
a lot of yes or no questions. This is a yes or no question; it 
is a pretty easy one, I think. Do you question the conclusions 
in the recently issued Fourth National Climate Assessment and 
GAO reports that the state of our economy is at risk if we do 
not take climate actions? Yes or no?
    Ms. Neumayr. We agree that the climate is changing and that 
human activity has a role.
    Senator Carper. The conclusions of the Fourth National 
Climate Assessment and the GAO reports state that our economy 
is at risk if we do not take climate actions. Do you question 
those conclusions?
    Ms. Neumayr. I agree that climate change is an issue and 
that human activity has a role. I also believe that the climate 
system is very complex and that it is important that we pursue 
technology and innovation to help to adapt to changing climate.
    Senator Carper. Thank you.
    We have talked a little bit about my next subject that 
relates to what I just asked you. I remember a time when I 
first learned that we had an ozone layer. When I was a kid, I 
didn't know that. I learned it later in life. Then I found out 
that we had a hole in it and the hole was getting bigger, and 
we were trying to figure out what was causing it, and it turned 
out one of the contributing factors was something called CFCs, 
chlorofluorocarbons. It had something to do with cooling our 
homes, this building, our cars, so forth. Pretty good 
refrigerant, pretty good coolant, but not so good for the ozone 
layer.
    So we figured out we probably ought to stop using that, and 
something came along called HFCs, hydrofluorocarbons, to 
replace them. Much better on the ozone layer, but not so good 
on climate and carbon. In some ways significantly worse than 
carbon dioxide with respect to global warming, climate change.
    So now we have these 401 products that have been developed 
by American companies that are OK with the ozone layer, and 
frankly, a whole lot better with respect to climate change.
    We have been waiting for the Administration for some time 
to ask us to pass an amendment, the Kigali Amendment to the 
Montreal Protocols, and we are still waiting. This is 
technology developed in America by American companies worth 
tens of thousands of jobs, billions of dollars' worth of 
economic activity for our country, ahead of the rest of the 
world. For the life of me, I don't understand why the 
Administration has not asked us to approve it.
    You and I have talked about this before. It just makes no 
sense. No sense. What is going on?
    Ms. Neumayr. Well, the potential submission of an amendment 
to the Senate for ratification is a decision that would be made 
by the President. There is currently an interagency process 
related to this that is led by----
    Senator Carper. That has been going on for a long time. It 
is a slow process.
    Ms. Neumayr. It is a process that is led by the NSC, and it 
is an ongoing process.
    Senator Carper. I would describe it as an unending process. 
In the meantime, we are ceding the advantages to others, 
including folks in China. We have to be smarter than that.
    I want to go back to the public comment issues involving 
NEPA regs and public comment periods. Last June, CEQ published 
an advanced notice of proposed rulemaking to consider potential 
updates and clarifications to its NEPA implementing regs, and 
that ANPRM initially offered a short public comment period, as 
you will recall, 30 days. A number of us said that is way too 
short; let's have it longer. It has been extended to 60 days. 
My understanding is no public hearings were conducted.
    As you know, the original regs and the singular amendments 
to those regs went through considerable deliberation both 
internally and by the public. I just want to ask if you would 
commit today to a minimum 90-day public comment period if a 
notice of proposed rulemaking is released.
    Ms. Neumayr. As I said earlier, no proposal has been 
submitted to the Office of Management and Budget. To the extent 
we submit a proposal, that would be a deliberative process, and 
I can't speak today to what would be included in a proposal 
ultimately until that process is concluded.
    Senator Carper. So I guess I couldn't ask you to commit 
tomorrow, could I?
    Ms. Neumayr. We do believe that it is important to receive 
public comment, and we look forward to, to the extent we move 
forward with a proposal, that we engage with the public, and we 
seek public comment.
    Senator Carper. All right, thank you. Well, please give 
that consideration. We appreciate the extension to 60 and would 
be very grateful for 90. Thank you.
    I will have some questions for the record. Thank you for 
joining us today.
    Senator Barrasso. Thank you very much, Senator Carper.
    Finally, last fall, the Administration appointed a 
permanent executive director to lead the Permitting Council, 
which was established in the FAST Act of 2015. I am just going 
to ask how CEQ is working with the Permitting Council, and 
would you support making this Permitting Council permanent?
    Ms. Neumayr. Yes, thank you for the question.
    Yes, CEQ does work closely with the Permitting Council. 
Under the legislation, the FAST Act, CEQ issued guidance 
relating to the Permitting Council in 2017. We have one staffer 
from the Permitting Council who is part-time with CEQ, and we 
do seek to work closely with them as they move forward with 
carrying out their responsibilities. We do think that Congress 
has, through the Permitting Council, advanced legislation that 
is very important because it does help to ensure a more 
coordinated process for very large infrastructure projects.
    Senator Barrasso. Thank you. Thank you for being here. We 
appreciate your testimony, your time, the work that you are 
doing.
    As Senator Carper said, you are going to have some written 
questions. I think other members may as well. I know a number 
of members were attending memorial services and a funeral in 
Indiana for former Senator Lugar, so you may be hearing from 
some of them.
    Senator Whitehouse. Mr. Chairman, can I?
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. One last odd coincidence. After my 
question, I flipped open my Bloomberg News feed, and if I could 
just take a moment and read five sentences from that feed.
    ``Florida's economy can be expected to `go to hell' as 
lenders begin to realize many properties financed with 30-year 
mortgages may be either literally or figuratively under water 
within that time, according to Spencer Glendon of the Woods 
Hole Research Center. A quick comparison of Miami Beach and 
Charlotte bonds suggest Florida investors may be ignoring 
`insane' climate risk. Either way, $1 trillion is on the line. 
Companies may face $1.2 trillion in losses globally if they 
delay addressing climate change during the next 15 years, 
according to a U.N. Environment Finance Initiative Analysis. 
That is also a rough estimate of what the U.S. may need to 
spend a year by 2050 to help avoid untold higher costs from 
unchecked warming.''
    So, I don't know if Bloomberg News was listening to me and 
suddenly sent this feed out, but it was----
    Senator Barrasso. Michael Bloomberg was listening to you 
and sent that feed.
    Senator Whitehouse. It certainly was an odd coincidence.
    [Laughter.]
    Senator Barrasso. Thank you.
    Senator Whitehouse. Thank you.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Thank you, Senator Carper.
    Thank you very much for your testimony and your time today. 
We very much appreciate the job you are doing.
    With that, this hearing is adjourned.
    [Whereupon, at 11:17 a.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
